Audit Report




OIG-13-009
Management Letter for the Audit of the Federal Financing Bank’s
Fiscal Years 2012 and 2011 Financial Statements


November 13, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF                              November 13, 2012
INSPECTOR GENERAL




            MEMORANDUM FOR GARY BURNER, CHIEF FINANCIAL OFFICER
                           FEDERAL FINANCING BANK

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for the Audit of the Federal Financing
                                  Bank’s Fiscal Years 2012 and 2011 Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Federal Financing Bank’s (FFB) Fiscal Years 2012 and 2011 financial
            statements. Under a contract monitored by the Office of Inspector General, KPMG
            LLP, an independent certified public accounting firm, performed an audit of the
            financial statements of FFB as of September 30, 2012 and 2011, and for the years
            then ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses a matter involving internal control over financial
            reporting and its operation that was identified during the audit but was not required
            to be included in the auditors’ reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Shiela Michel, Manager, Financial Audits, at (202) 927-
            5407.

            Attachment
                             KPMG LLP
                             Suite 12000
                             1801 K Street, NW
                             Washington, DC 20006




November 9, 2012


Inspector General, U.S. Department of the Treasury, and
the Board of Directors, Federal Financing Bank:

In planning and performing our audit of the Federal Financing Bank’s (the Bank) financial
statements as of and for the year ended September 30, 2012, in accordance with auditing standards
generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended, we considered the Bank’s internal control over
financial reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements but not for the purpose of
expressing an opinion on the effectiveness of the Bank’s internal control. Accordingly, we do not
express an opinion on the effectiveness of the Bank’s internal control.
During our audit, we noted a certain matter involving internal control that is presented for your
consideration. This comment and recommendations, all of which have been discussed with the
appropriate members of management, are intended to improve internal control and are
summarized in Exhibit I. We also provided in Exhibit II the status of the comment included in our
letter arising from the fiscal year 2011 audit.
Our audit procedures are designed primarily to enable us to form an opinion on the financial
statements and, therefore, may not bring to light all weaknesses in policies or procedures that may
exist. We aim, however, to use our knowledge of the Bank gained during our work to make
comments and suggestions that we hope will be useful to you.
This communication is intended solely for the information and use of the Bank’s management, the
U.S. Department of the Treasury’s Office of Inspector General, the U.S. Government
Accountability Office, the Office of Management and Budget, and the U.S. Congress, and is not
intended to be, and should not be, used by anyone other than these specified parties.




                            KPMG LLP is a Delaware limited liability partnership,
                            the U.S. member firm of KPMG International Cooperative
                            (“KPMG International”), a Swiss entity.
                                                                                             Exhibit I

                                  Federal Financing Bank
                        Current Year Comment and Recommendation
                                       September 30, 2012



Change Management Procedures
In fiscal year 2012, we noted discrepancies in cash receipt amounts included in the cash receipt report
(generated July 2012). It should be noted the original version of the cash receipts generated after the
respective month end were unaffected because the differences were the result of two system change
requests in the month of June. The changes only affected the cash receipts report generated July 9,
2012.

In examining the reasons leading to the differences noted in the condition, we determined that while
FFB management tests and approves change requests prior to implementing system changes, their
change management procedures are not comprehensive enough to ensure proper testing occurs prior to
and subsequent to development and production. Due to the lack of regression testing, management was
unable to detect the effect of the system change in production. Additionally, an FFB IT staff member
was not assigned to review in detail the change requests of development or production projects, created
by the contracting firm, prior to the accountants performing their tests and approval of the changes.

Office of Management and Budget (OMB) Circular A-123 states, Management Accountability and
Control, prescribes the expectation of management and the responsibility of managers for the quality
and timeliness of program performance. Specifically, the Circular states that “reliable and timely
information is obtained, maintained, reported and used for decision making.”

OMB Circular A-127 states that Agency financial management systems shall comply with the
following requirements: i. Documentation. Agency financial management systems and processing
instructions shall be clearly documented in hard copy or electronically in accordance with (a) the
requirements contained in the Federal Financial Management Systems Requirements documents
published by Joint Financial Management Improvement Program (JFMIP) or (b) other applicable
requirements. All documentation (software, system, operations, user manuals, operating procedures,
etc.) shall be kept up- to-date and be readily available for examination. System user documentation
shall be in sufficient detail to permit a person, knowledgeable of the agency's programs and of systems
generally, to obtain a comprehensive understanding of the entire operation of each system. Technical
systems documentation such as requirements documents, systems specifications and operating
instructions shall be adequate to enable technical personnel to operate the system in an effective and
efficient manner.

Without a proper change control process over the application program regarding the flow of changes
from development to production, potentially inaccurate program changes may be implemented into the
production environment. Furthermore, if program development and modification activities are not
monitored (by FFB IT staff) relative to an established system development methodology, development
of and modifications to programs may not be properly evaluated in connection with the posting logic of
Loan Management Control System (LMCS), meet established design specifications, be properly
reviewed and tested prior to introduction into the production environment.


                                                2
                                                                                           Exhibit I

                                  Federal Financing Bank
                        Current Year Comment and Recommendation
                                      September 30, 2012



Recommendations
We recommend that management strengthen change control procedures for LMCS and related report
modifications to conform to existing standards. Specifically, management should:


1) Implement policies and procedures to provide adequate supervision, by FFB IT staff, when a
   contractor develops requirements, testing, acceptance, and subsequent implementation initiatives
   prior to moving into production.
2) Strengthen change request form to include: all requirements for the change, scope of change
   request including time period of change, life cycle of implementation and end user testing to
   ensure all change requests are properly tested.
3) Ensure that the level and sufficiency of testing are appropriate for specific change requirements;
   that change requests are appropriately evaluated, authorized, and monitored to ensure they achieve
   the users’ requirements and do not negatively impact existing processing.


Management’s Response
Management concurs with the finding and recommendations.




                                               3
                                                                                             Exhibit II

                                     Federal Financing Bank
                             Status of Prior Year Recommendations
                                       September 30, 2012




            Prior Year Comment                                    Current Year Status

1. Fair Value of the Federal Credit Reform Act       During FY 2012, we noted several instances
   Borrowings                                        where the Fair Value disclosure over borrowings
                                                     was incorrectly calculated resulting in an
                                                     understatement of $152 million. As a result, we
                                                     reported this finding as significant deficiency in
                                                     the Independent Auditors’ Internal Control
                                                     Report over Financial Reporting.




                                                 4
